, ►

FILED: September 29,2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1059
(3:19-cv-00104)
DIANNE MICHELE CARTER
Plaintiff - Appellant
v.
THOMAS PELLICANE, SOUSM, U.S Marshals Service W/NC; BARBARA
YATES, DUSM- U.S Marshals Service W/NC; GREGORY ALLYN FOREST
U.S. Marshal
Defendants - Appellees

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Harris, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

Appendix N1

FILED: May 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1059
(3:19-cv-00104)
DIANNE MICHELE CARTER
Plaintiff - Appellant
v.
THOMAS PELLICANE, SOUSM, U.S Marshals Service W/NC; BARBARA
YATES, DUSM- U.S Marshals Service W/NC; GREGORY ALLYN FOREST
U.S. Marshal
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR. CT.F.RK'

Appendix N2

«* .

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1059
DIANNE MICHELE CARTER,
Plaintiff - Appellant,
v.
raOMAS PELLICANE, SOUSM, U.S. Marshals Service W/NC; BARBARA
YATES, DUSM- U.S. Marshals Service W/NC; GREGORY ALLYN FOREST
U.S. Marshal,
Defendants - Appellees.

Appeal from the United States District Court for the Western District of North Carolina at
Charlotte. Cameron McGowan Currie, Senior District Judge. (3:19-cv-00104)
Submitted: May 19, 2020

Decided: May 21, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Dianne Michele Carter, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Appendix N3

r
,r. •

PER CURIAM:
Dianne Michele Carter appeals the district court’s order accepting the
recommendation of the magistrate judge and denying relief on her complaint filed pursuant
to Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388
(1971) and related claims. We have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the district court. Carter v. Pellicane, No.
3:19-cv-00104 (W.D.N.C. Dec. 20, 2019). We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

2

Appendix N4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
Dianne Michele Carter,

C/A. No. 3:19-104-CMC-SVH

Plaintiff
v.
Thomas Pellicane, SOUSM, U.S. Marshals
Service W/NC; Barbara Yates, DUSM- U.S.
Marshals Service W/NC; and Gregory Allyn
Forest, U.S. Marshal,

Opinion and Order

Defendants.

This matter is before the court on Plaintiff Dianne Michele Carter’s (“Carter”) pro se
Complaint, construed as one pursuant to Bivens v. Six Unknown Named Agents ofFederal Bureau
of Narcotics, 403 U.S. 388 (1971).1 ECF No. 1. Carter alleges violations of her constitutional
rights when Deputy United States Marshals arrested her on an outstanding bench warrant at a
house she claims belongs to the Moorish Holy Temple of Science. Defendants filed a motion to
dismiss, or in the alternative, for summary judgment. ECF No. 12. Because Carter is proceeding
pro se, the Magistrate Judge entered an order pursuant to Roseboro v. Garrison, 528 F.2d 309 (4th
Cir. 1975), advising her of the importance of the motion and the need to file an adequate response.
ECF No. 13. Carter filed a response in opposition (ECF No. 15), Defendants filed a reply (ECF

i

On March 7,2019, the undersigned was designated by Chief Judge Gregory to sit with the United
State District Court for the Western District of North Carolina pursuant to 28 U.S.C. § 294(c) in
connection with this case. ECF No. 24.

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 1 of 11

No. 16), and Carter filed a sur-reply (ECF No. 17). Carter also filed a motion to amend her
Complaint. ECF No. 20.
In accordance with 28 U.S.C. § 636(b) and Local Civil Rule 73.02 (B)(2)(d), DSC, this
matter was referred to United States Magistrate Judge Shiva V. Hodges for pre-trial proceedings
and a Report and Recommendation (“Report”).2 On November 6, 2019, the Magistrate Judge
issued a Report recommending Defendants’ motion to dismiss be granted and Carter’s motion to
amend be denied as futile. ECF No. 21. The Magistrate Judge advised Carter of the procedures
and requirements for filing objections to the Report and the serious consequences if she failed to
do so. Carter filed objections to the Report on November 20, 2019. ECF No. 22.
I.

Background
Carter was a tax preparer who operated Carter Sensible Tax Service. United States v.

Dianne M. Carter, 3:16-cv-673 (W.D.N.C. Sept. 14, 2018) (ECF No. 12-2 at l)3 (“Carter 7”).4 In
2014, the Internal Revenue Service (“IRS”) reviewed sixty-three tax returns prepared by Carter
between 2011 and 2014 and concluded thirty of these returns had evidence of improper conduct.
Id. at 2. Twenty-five of the returns were federal income tax returns prepared for inmates at Nash
Corrections Institution. Id. at 4. The returns were allegedly based on entirely fabricated incomes
and withholdings, id. at 6, and claimed refunds ranging from $7,924 to $19,996. Id. at 3; see, e.g.,
ECF No. 12-3 at 2. Five of the returns reviewed by the IRS were prepared on behalf of purported

2 Magistrate Judge Hodges was designated for service in this matter by Order filed March 11,
2019. ECF No. 3.
3 References to ECF docket numbers in the Background section refer to the docket of the
underlying case, Carter I.
4 As noted by the Magistrate Judge, this court may take judicial notice of the prior case.
2

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 2 of 11

trusts. ECF No. 12-2 at 3. These returns listed no income for the “trusts,” id. at 5, yet claimed
refunds ranging from $750,000 to $8,035,560. Id. at 3.
The IRS rejected refunds in all but one of these tax returns. Id. at 12. However, the IRS
mistakenly issued a $750,000 refund to one of the purported trusts. Id. at 11-12. To recover this
refund, the IRS brought a collections action against the fiduciary of the trust and was able to
recover $749,949.10. Id. at 12. As a consequence of investigating Carter’s activities, the IRS
accrued at least $23,000 in administrative costs. Id. On September 16,2016, the United States filed
a Complaint primarily seeking an injunction to stop Carter from acting as a tax preparer and filing
any other tax returns on behalf of others. ECF No. 1.
The United States moved for summary judgment, requesting a permanent injunction and
other equitable relief. ECF No. 12. After full briefing, the court granted the United States’ motion
for summary judgment and issued an Injunction on October 2,2017 ordering Carter to permanently
cease acting as a federal income tax return preparer in any capacity; to notify, by November 1,
2017, all persons for whom she prepared, or assisted in preparing, federal tax returns to inform
them of the permanent injunction entered against her; and to provide counsel for the United States,
by November 1, 2017, a list of all persons for whom Carter had prepared a federal income tax
return, amended return, or refund claim since January 1, 2010. Finally, Carter was ordered to file
with the Clerk of the Court in North Carolina a sworn certificate of compliance by December 1,
2017. See ECF No. 16. The docket reflects this Order and the Judgment were served on Carter
by US mail.
Shortly after the entry of the Order, on October 12, 2017, Carter filed a document docketed
as a “Pro se Response re Order on Motion for Summary Judgment” and entitled “Objection to
Order and Jurisdictional Challenge,” which challenged the court’s jurisdiction based on sovereign
3

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 3 of 11

citizen type arguments. ECF No. 18. About six weeks later, on November 28, 2017 she filed a
notice of appeal, which included a request to stay the case until the Fourth Circuit ruled on her
appeal. ECF No. 19. No stay was granted. On December 14, 2017, the United States filed a
motion for Order to Show Cause why Carter should not be held in contempt for failing to comply
with the court’s Order and Injunction. ECF No. 24. The court entered an Order on December 21,
2017 setting a January 5, 2018 hearing for Carter to show cause why she had not complied with
the court’s October 2017 Order and why she should not be held in contempt for non-compliance.
ECF No. 25. The court ordered Carter to be served in accordance with Rule 4(e) of the Federal
Rules of Civil Procedure. Id. at 2. This Order also denied Defendant’s motion to stay pending
appeal as moot. Id. On December 22, 2017, Carter filed a motion to dismiss the motion to show
cause, contending the district court did not have jurisdiction because the case was on appeal. ECF
No. 27. The court denied this motion by text order the next day, holding “no court has issued a
stay of the implementation of the subject order in this case. Therefore the court retains jurisdiction
to enforce the subject order.”
The show cause hearing was held on January 5, 2018. Carter did not appear. The minute
entry on the docket reveals “the AUSA informed the court of all attempts to serve [Carter] with
the Show Cause Order. Court issued a bench warrant for failure to comply with the court’s October
2,2017 Order. »5 The bench warrant showed the offense as “contempt of court for failure to comply
with the Court’s October 2, 2017 Order.” ECF No. 28. On January 17, 2018, the United States

5 The process server had attempted to serve the show cause order six times, but was unable to do
so. See ECF No. 29-1 at 2.

4

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 4 of 11

filed a motion for an Order authorizing all necessary actions to execute the bench warrant. ECF
No. 29. The Government stated Carter appeared to be attempting “to evade arrest by refusing to
leave her home. ”6 ECF No. 29-1 at 1. On January 25, 2018, the court issued an Order authorizing
all necessary actions to execute the bench warrant. ECF No. 30. The Fourth Circuit denied a stay
and affirmed the district court’s grant of summary judgment on February 16, 2018. ECF No. 31.
Carter was arrested pursuant to the bench warrant on February 26, 2018. ECF No. 34. The
same day, a contempt hearing was held. The court indicated it would release Carter from custody
when she complied with the October 2, 2017 Order. ECF No. 36 (hearing transcript). She
represented she was not at home when the Marshal came to arrest her, and she “didn’t know why
they couldn’t find me.” Id. at 11, 15. However, the court stated “You were informed by show
cause orders and other things you weren’t in compliance,” and Carter replied “[t]haf s true.” Id.
at 41. Carter told the court she would comply with its Order, but the required information was in
her files at her home. The court decided she could not be released from custody before complying,
and the Government was ordered to find an officer to accompany Carter to her home and supervise
while she retrieved the information.7
On August 14, 2018, Carter filed a pro se motion to vacate the show cause order, bench
warrant, and order authorizing all necessary actions to effect bench warrant. ECF No. 37. She

6 Deputy Marshal Yates had attempted to serve the bench warrant at Carter’s home and knocked
on the door for 45 minutes with no answer, despite lights being turned on and off during the period
and both of Carter’s cars being parked in the garage. ECF No. 29-1 at 3. The Government indicated
this meant Carter “was present at the home but refusing to voluntarily surrender to law
enforcement.” Id.
1 The record is devoid of information regarding how quickly this occurred and when Carter was
released from custody.
5

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 5 of 11

argued the show cause order was not properly served on her, and therefore the court’s orders and
warrant were void. Id. The court construed her motion as one for relief from judgment under Rule
60 and denied it on September 14, 2018. ECF No. 38. On September 24, 2018, Carter filed a pro
se motion requesting another judge rehear the motion to vacate. ECF No. 39. The court construed
this as a motion to recuse and denied it on September 25, 2018. Carter filed a notice of appeal of
the Order denying her motion to vacate on November 6, 2018. She then filed a motion for relief
captioned as a “Jurisdiction Challenge” the following day. ECF No. 40. Her motion argued there
was insufficient service of process and the court acted in excess of jurisdiction, and requested the
“judgments reversed as void and a nullity.” Id. at 1. On November 14, 2018, the court denied her
motion and held its exercise of jurisdiction proper. ECF No. 41. Carter was also put on notice in
that Order her filings were frivolous and sanctions would be considered if she continued to make
frivolous filings. Id. Finally, on April 8, 2019, the Fourth Circuit affirmed the district court’s
decision on Carter’s post judgment motion. ECF No. 46.
Carter has now filed the instant case alleging Defendants broke into a house where she
resides and arrested her without lawful authority to do so. 3:19-cv-00104 at ECF No. 1. She
alleges constitutional and non-constitutional grounds for relief, including claims under the
Americans with Disabilities Act (“ADA”) and 42 U.S.C. § 1983. Id. She requests actual and
punitive damages for her false arrest and imprisonment. Id. at 9.
II.

Standard
The Magistrate Judge makes only a recommendation to this court. The recommendation

has no presumptive weight, and the responsibility to make a final determination remains with the
court. See Mathews v. Weber, 423 U.S. 261 (1976). The court is charged with making a de novo
determination of any portion of the Report of the Magistrate Judge to which a specific objection
6

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 6 of 11

is made. The court may accept, reject, or modify, in whole or in part, the recommendation made
by the Magistrate Judge or recommit the matter to the Magistrate Judge with instructions. See 28
U.S.C. § 636(b).
III.

Discussion
The Report recommends granting the motion to dismiss as to all claims.8 ECF No. 21.

Carter has filed objections to the Report. ECF No. 22. Her objections regarding her claims will
be discussed below. As an initial matter, Carter states the Magistrate Judge ignored her “Response
to Motion to Dismiss” dated 22 July 2019, the “Response to Defendants Reply filed 8/01/19” dated
5 Aug 2019, and her “Petition to Amend to Enjoin Parties dated 1 November 2019.” Id. at 4.
However, it is clear from the Report the Magistrate Judge did consider Carter’s filings in response
to Defendants’ motion to dismiss, as well as her motion to amend.9 See ECF No. 21 at 2 (“The
motion having been fully briefed [ECF Nos. 15-17] it is ripe for disposition.”).
a. Non-Constitutional Claims
Dismissal is recommended as to the non-constitutional claims due to lack of jurisdiction,
because only the United States is amenable to suit under the Federal Tort Claims Act (“FTCA”)
but is not a Defendant in this case, and for failure to exhaust an FTCA claim against the Untied
States. ECF No. 21 at 6. As to the claim under the Americans with Disabilities Act (“ADA”), the
Report recommends dismissal because the ADA does not apply to the United States. Id. at 10.

8

When resolving a motion to dismiss, a court may consider facts and document subject to judicial
notice without converting the motion into one for summary judgment. Clatterbuck v. City of
Charlottesville, 708 F.3d 549, 557 (4th Cir. 2013) (citing Tellabs, Inc. v. Makor Issues & Rights,
Ltd., 551 U.S. 308,322 (2007).
9 Carter, in fact, objects to the Report’s conclusion regarding the motion to amend.
7

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 7 of 11

Carter does not set forth specific objections to these recommendations by the Report. For
example, she does not discuss exhaustion under the FTCA, nor does she seek to amend to add the
United States as a defendant for an FTC A claim.

She does not object to the Report’s

recommendation regarding the ADA claim. Therefore, the Report’s conclusions on these claims
are reviewed for clear error. Finding none, the court adopts the portions of the Report regarding
Carter’s non-constitutional and ADA claims. These claims are dismissed with prejudice.
b. Constitutional Claims
The Report finds Carter has not shown Defendants violated the Constitution in arresting
her, as she was arrested pursuant to a valid bench warrant. ECF No. 21 at 8. Carter objects to the
Report.

ECF No. 22.

She alleges she “has no constitutional rights,” but then states her

“unalienable rights are protected by the constitution.” Id. at 1-2. She objects to the factual
background, stating the show cause order in the underlying case was not served on her, and
therefore she failed to attend the show cause hearing, after which a bench warrant was issued for
her arrest. Carter contends, therefore, “[ejvery court order issued on and after January 5,2018 was
issued in excess of jurisdiction and is void because of insufficient service of process.” Id. at 2.
Carter argues she is a “real party in interest” to the property in which she was arrested, as she is
the “trust administrator and beneficiary of the house defendants broke into.” Id.

Because

Defendants did not have a valid warrant, Carter contends, her arrest was unconstitutional. Id.
Carter also argues the bench warrant issued for her arrest was invalid because unsupported
by oath or affirmation; therefore, the warrant (and order allowing reasonable force) were “in excess
of jurisdiction.” Id. Carter contends she was not provided notice to appear at the hearing in the
underlying case and therefore could not be “in contempt of an order of which she had no
knowledge.” Id.
8

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 8 of 11

So far as Carter objects based on lack of service of the order to show cause and notice of
show cause hearing, the court notes both were mailed to Carter at the address she provided to that
court. See C/A No. 3:16-cv-673 at ECF No. 25 (noting, in part “Pro se litigant served by US
Mail”); court note on docket showing Notice of hearing and Order mailed to Carter at address
provided). That docket also shows a Minute Entry from the show cause hearing held January 5,
2018, in which the “AUSA informed Court of all attempts to serve defendant with Show Cause
Order.” It is clear the United States attempted to serve the Order on Carter personally, including
six attempts to serve her at the address she provided to the court, and she does not appear to dispute
receiving the Order and Notice via mail from the court.
Further, the bench warrant was issued not for Carter’s failure to attend the show cause
hearing, but for her failure to comply with the court’s October 2017 Order requiring her to turn
over certain information to the United States. It is clear from Carter’s filings and her testimony at
the contempt hearing she received the October 2017 Order containing the injunction and ordering
certain information produced to the Government, yet she failed to do so in the time ordered. The
court therefore agrees with the Report a valid bench warrant existed and Carter was arrested
pursuant to it. See id. at ECF No. 28. Accordingly, the Deputy Marshals did not violate Carter’s
constitutional rights when they arrested her pursuant to the valid bench warrant and order
authorizing all necessary actions to execute the warrant.
c. Defendant Forest
The Report recommends dismissal of Defendant Forest because Carter did not allege he
personally acted in her arrest, and there is no basis for supervisory liability. ECF No. 21 at 8-9.
Carter argues the “Office of the USMS is liable for acts of its employees,” and “the Marshal is
liable in his capacity as Marshal regardless of when he took office.” ECF No. 22 at 4.
9

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 9 of 11

Defendant Forest is subject to dismissal because, as explained by the Magistrate Judge, the
doctrine relied upon by Carter in her claims against Forest, supervisory liability, is generally
inapplicable in actions pursuant to Bivens, absent a policy or custom that results in illegal action.
As the court has determined no illegal action occurred, supervisory liability may not attach. There
are no allegations against Defendant Forest individually, as he was appointed United States
Marshal after Carter’s arrest. Therefore, any claims against Defendant Forest are dismissed.
d. Carter’s Motion to Amend
Finally, the Report recommends Carter’s motion to amend to add State Defendants be
denied as futile, because Carter has failed to show a violation of a constitutional right required to
support a federal cause of action against the State Defendants. ECF No. 21 at 10. Carter objects
to the recommendation and argues she cannot bring her claims against the State Defendants in
State Court due to a conflict of interest. ECF No. 22 at 4-5.
The court agrees with the Report’s conclusion Carter’s motion to amend to add new parties
is futile. Carter wishes to add four defendants: Sheriffs Department of Mecklenburg County, the
State of North Carolina, the Town of Matthews, and the Matthews Police Department. She alleges
these proposed defendants conspired with the Marshals regarding her arrest. However, as the
claims in Carter’s current Complaint will be dismissed by this Order, and Carter’s proposed
amendments do not alter these conclusions, it would be futile to add these proposed defendants.
IV.

Conclusion
After reviewing the record of this matter, the applicable law, the Report and

Recommendation of the Magistrate Judge, and Carter’s objections, the court agrees with the
conclusions of the Magistrate Judge. Accordingly, the court adopts and incorporates the Report
and Recommendation by reference as supplemented in this Order. Defendants’ motion to dismiss
10

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 10 of 11

(ECF No. 12) is granted, and Carter’s motion to amend (ECF No. 20) is denied as futile. Because
“the grounds of the dismissal make clear that no amendment could cure the defects” in Plaintiffs
case, this matter is dismissed with prejudice. Goode v. Central Virginia Legal Aid Society, Inc.,
807 F.3d 619, 625 (4th Cir. 2015).
IT IS SO ORDERED.
s/Cameron McGowan Currie
CAMERON MCGOWAN CURRIE
Senior United States District Judge
Columbia, South Carolina
December 19, 2019

11

Case 3:19-cv-00104 Document 26 Filed 12/20/19 Page 11 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
Dianne Michele Carter,

C/A. No. 3:19-104-CMC-SVH

Plaintiff
v.
Thomas Pellicane, SOUSM, U.S. Marshals
Service W/NC; Barbara Yates, DUSM- U.S.
Marshals Service W/NC; and Gregory Allyn
Forest, U.S. Marshal,

Order

Defendants.

This matter is before the court on Plaintiff Dianne Michele Carter’s (“Carter”) pro se
Notice of Jurisdictional Challenge. ECF No. 23. Carter challenges the jurisdiction of Magistrate
Judge Hodges over her case, which was filed in the Western District of North Carolina. She has
attached a letter from Ms. Blume, the Clerk of Court in the District of South Carolina, which noted
the case is not proceeding in the District of South Carolina but directed her to the header, which
states “United States District Court for the North Carolina Western District.” ECF No. 23-1.
Carter filed her Complaint in the Western District of North Carolina on March 4, 2019.
ECF No. 1. On March 7, 2019, the undersigned was designated by Chief Judge Gregory to sit
with the United State District Court for the Western District of North Carolina pursuant to 28
U.S.C. § 294(c) in connection with this case. ECF No. 24. Because a Magistrate Judge in the
Western District of North Carolina was unavailable to assist the undersigned, Magistrate Judge
Hodges was appointed by the Chief Judge of the Western District of North Carolina, with the
concurrence of the Chief Judge of the District of South Carolina. ECF No. 3.

The Order sets

forth the statutory authority for the designation of Magistrate Judge Hodges under 28 U.S.C. §

Case 3:19-cv-00104 Document 25 Filed 12/20/19 Page 1 of 2

636(f). The docket reveals a copy of this Order was served on Carter, a pro se litigant, by US
Mail.
As Magistrate Judge Hodges was designated and assigned to this case in accordance with
federal law, her jurisdiction is proper.1 Carter’s Jurisdictional Challenge is dismissed.
IT IS SO ORDERED.
s/Cameron McGowan Currie
CAMERON MCGOWAN CURRIE
Senior United States District Judge
Columbia, South Carolina
December 19, 2019

i

The court notes the Magistrate Judge’s Report and Recommendation did contain a Notice of
Right to File Objections that directed Carter to file such objections with the Clerk of Court for the
District of South Carolina. However, this was a scrivener’s error, as Carter’s case is filed in the
Western District of North Carolina. Plaintiff has timely filed objections to the Report in the
Western District of North Carolina; therefore, no prejudice has resulted from this error.
2

Case 3:19-cv-00104 Document 25 Filed 12/20/19 Page 2 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
Dianne Michele Carter,

)

C/A No.: 3:i9-104-CMC-SVH

)

Plaintiff,

)
)
)

vs.

)

Thomas Pellicane, SOUSM, U.S.
Marshals Service W/NC; Barbara
Yates, DUSM- U.S. Marshals
Service W/NC; and Gregory Allyn
Forest, U.S. Marshal,1

)
)

REPORT AND
RECOMMENDATION

)
)
)
)

Defendants.

)
)

Dianne Michele Carter (“Plaintiff’ or “Carter”), proceeding pro se and in
forma pauperis, brings this action alleging a violation of her constitutional
rights

against

the

above-named

defendants

(“Defendants”).

Plaintiffs

constitutional claims are construed as brought pursuant to Bivens v. Six
Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388, 397
(1971).
This matter comes before the court on Defendants’ motion to dismiss.
[ECF No. 12]. Pursuant to Roseboro v. Garrison, 528 F.2d 309 (4th Cir. 1975),
the court advised Plaintiff of the dismissal procedures and the possible

1 It is unclear whether Plaintiff intended to name Forest personally or instead
intended to sue the United States Marshal Service for the Western District of
North Carolina. For the reasons herein, both would be entitled to dismissal.

Case 3:19-cv-00104 Document 21 Filed 11/06/19 Page 1 of 12

consequences if she failed to respond adequately to Defendants’ motion. [ECF
No. 13].

The motion having been fully briefed [ECF Nos. 15-17], it is ripe for

disposition.
Pursuant to the Order of Designation docketed as ECF No. 3, the
undersigned United States Magistrate Judge has been assigned to perform any
and all judicial duties provided for under 28 U.S.C. § 636 (a)—(c) in this matter.
Because the motion is dispositive, this report and recommendation is entered
for the district judge’s consideration. Having carefully considered the parties’
submissions and the record in this case, the undersigned recommends the
district judge grant Defendants’ motion to dismiss.
I.

Factual Background
Plaintiff was the defendant in a civil action titled United States of

America v. Dianne M. Carter, C/A No. 3U6CV673 (“CarterD.2 Because Carter
failed to comply with an order, the Carter I court issued a show cause order,
directing her to appear on January 5, 2018. Carter I at 25. The court also
directed the government to serve the order on Carter in accordance with Fed.
R. Civ. P. 4. Id. Carter failed to attend a show cause hearing on January 5, 2018.

2 This court may take judicial notice of the prior case. Aloe Creme Labs., Inc. v.
Francine Co., 425 F.2d 1295, 1296 (5th Cir. 1970); see also Colonial Penn Ins.
Co. v. Coil, 887 F.2d 1236, 1239 (4th Cir. 1989) (“We note that ‘the most frequent
use of judicial notice is in noticing the content of court records.’”); Mann v.
Peoples First Natl Bank & Trust Co., 209 F.2d 570, 572 (4th Cir. 1954)
(approving district court’s taking judicial notice of prior suit with same parties).

Case 3:19-cv-00104 Document221 Filed 11/06/19 Page 2 of 12

See Carter I, January 5, 2018 Minute Entry. The court issued a bench warrant
for Carter’s arrest. Id. at ECF No. 28. On January 25, 2018, the court granted
the United States’s motion for an order “authorizing all necessary actions to
execute bench warrant against defendant.” Id. at ECF No. 30. The order
provided that, because the United States Marshals Service (“USMS”) had been
unable to procure Carter’s voluntary surrender to the January 5, 2018, bench
warrant, the USMS was “authorized and directed to take all reasonable actions,
including but not limited to the use of reasonable force, necessary to execute
the bench warrant and procure [Carter’s] attendance before the Court.” Id.
According to the complaint in this action, Supervisory United States
Marshal Thomas Pellicane (“Pellicane”) and Deputy United States Marshal
Barbara Yates (“Yates”) participated in arresting Carter on February 26, 2018.
[ECF No. 1 at 2]. Carter alleges Defendants “broke into the house belonging to
the Moorish Holy Temple of Science of the World/Moorish Science Temple of
America” and arrested her. Id. at 2. She alleges she was arrested without a
warrant and that Defendants violated her constitutional rights in entering the
house, searching it, and arresting her. Id.3 She further alleges Defendants
violated her rights under the American with Disabilities Act, 42 U.S.C § 12101

3 Carter also alleges Defendants failed to secure the property “which is the
proximate cause of the house being burglarized.” [ECF No. 1 at 2]. However,
she has failed to show that she has any ownership interest in the property.

Case 3:19-cv-00104 Document321 Filed 11/06/19 Page 3 of 12

(“ADA”), by detaining her in a jail with criminals, aggravating her psychic
disorder she identifies as “Legal Abuse Syndrome Post Traumatic Street
Disorder.” Id. at 3.
Plaintiffs complaint purports to be bringing claims for abuse of process,
“assumption of duty,” breach of fiduciary duty, conspiracy, constructive fraud,
intentional infliction of emotional distress, negligence, and a claim under 42
U.S.C. § 1983. [ECF Nos. 3-9].
II.

Discussion
A.

Standard on Motion to Dismiss

Dismissal is appropriate under Fed. R. Civ. P. 12(b)(1) where the court
lacks subject-matter jurisdiction and under Fed. R. Civ. P. 12(b)(6) for failure
to state a claim upon which relief can be granted. A motion to dismiss under
Rule 12(b)(1) examines whether a complaint fails to state facts upon which
jurisdiction can be founded. It is the plaintiffs burden to prove jurisdiction, and
the court is to “regard the pleadings’ allegations as mere evidence on the issue,
and may consider evidence outside the pleadings without converting the
proceeding to one for summary judgment.” Richmond, Fredericksburg &
Potomac R.R. Co. v. United States, 945 F.2d 765, 768 (4th Cir. 1991). A motion
to dismiss under Rule 12(b)(6) examines the legal sufficiency of the facts alleged
on the face of the plaintiffs complaint. Edwards v. City of Goldsboro, 178 F.3d
231, 243-44 (4th Cir. 1999). To survive a Rule 12(b)(6) motion, “a complaint

Case 3:19-cv-00104 Documental Filed 11/06/19 Page 4 of 12

must contain sufficient factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). The court is “not
required to accept as true the legal conclusions set forth in a plaintiffs
complaint.” Edwards, 178 F.3d at 244. Indeed, “[t]he presence of a few
conclusory legal terms does not insulate a complaint from dismissal under Rule
12(b)(6) when the facts alleged in the complaint cannot support the legal
conclusion.” Young v. City of Mount Ranier, 238 F.3d 567, 577 (4th Cir. 2001).
Pro se complaints are held to a less stringent standard than those drafted
by attorneys. Gordon v. Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978). A federal
court is charged with liberally construing a complaint filed by a pro se litigant
to allow the development of a potentially meritorious case. Erickson v. Pardus,
551 U.S. 89, 94 (2007). When a federal court evaluates a pro se complaint, the
plaintiffs allegations are assumed to be true. Fine v. City of'NY., 529 F.2d 70,
74 (2d Cir. 1975). The mandated liberal construction afforded to pro se
pleadings means if the court can reasonably read the pleadings to state a valid
claim on which the plaintiff could prevail, it should do so. Nevertheless, the
requirement of liberal construction does not mean the court can ignore a clear
failure in the pleading to allege facts that set forth a claim currently cognizable
in a federal district court. Weller v. Dep’t of Soc. Servs., 901 F.2d 387, 390-91
(4th Cir. 1990).

Case 3:19-cv-00104 Document521 Filed 11/06/19 Page 5 of 12

B.

Analysis
1.

Non-constitutional claims
a.

Subject matter jurisdiction

Defendants argue all Plaintiffs non-constitutional claims4 must be
dismissed for lack of subject matter jurisdiction, as a suit pursuant to the
Federal Tort Claims Act, 28 U.S.C. § 1346 (“FTCA”), lies only against the
United States. The FTCA waives sovereign immunity5 and allows suits against
the United States for personal injuries caused by government employees acting
within the scope of their employment. 28 U.S.C. § 1346. Under the FTCA, a
plaintiff may recover a monetary award from the United States for damages
“caused by the negligent or wrongful act or omission of any employee of the
Government while acting within the scope ... of employment.” 28 U.S.C. §
1346(b)(1). As the court lacks jurisdiction over a FTCA claim against defendants
other than the United States, the undersigned is constrained to find that
Plaintiffs claim, in its current stature, is subject to dismissal.
b.

Exhaustion

Even if Plaintiff had correctly named the United States for her tort

4 Defendants do not concede that all of the claims asserted are viable causes of
action, such as “assumption of duty,” but nevertheless note that these
Defendants may not be sued for Plaintiffs non-constitutional claims.
5 To the extent the FTCA does not apply to Plaintiffs claims, they are barred
by sovereign immunity. Kentucky v. Graham, 473 U.S. 159, 166 (1985).

Case 3:19-cv-00104 Documental Filed 11/06/19 Page 6 of 12

claims, it appears she failed to exhaust her administrative remedies. The FTCA
requires Plaintiff to exhaust her administrative remedies through the
appropriate agency before bringing suit.

28 U.S.C. § 2675(a).

The FTCA

states^
An action shall not be instituted upon a claim against the United
States for money damages for injury or loss of property or personal
injury or death caused by the negligent or wrongful act or omission
of any employee of the Government while acting within the scope
of his office or employment, unless the claimant shall have first
presented the claim to the appropriate Federal agency and his
claim shall have been finally denied by the agency in writing and
sent by certified or registered mail.
28 U.S.C. § 2675(a).

The presentment of an administrative claim is

jurisdictional and cannot be waived.

Henderson v. United States, 785 F.2d

121, 123 (4th Cir. 1986).
Defendants submitted the affidavit of USMS General Counsel Gerald M.
Auerbach that states Plaintiff filed no administrative claim. [ECF No. 12-2].
Plaintiff does not dispute her failure to exhaust. Therefore, the undersigned
finds that Plaintiff failed to exhaust her non-constitutional tort claims.
2.

Constitutional Claims

Although Plaintiff claims she was arrested without a warrant, court
records reveal a signed bench warrant commanding her arrest, and an
additional order allowing the USMS to use reasonable force. Carter I at ECF
Nos. 28, 30. Plaintiff argues that because the government was unable to effect

Case 3:19-cv-00104 Document721 Filed 11/06/19 Page 7 of 12

service of the show cause hearing on her, the court’s orders commanding her
arrest were unlawful and unconstitutional. [ECF No. 15 at l].6 The court’s
order directing the government to serve her pursuant to Fed. R. Civ. P. 4 was
an attempt to ensure Carter be provided notice, but the court had already
exercised proper jurisdiction over her and had jurisdiction to hold her in
contempt of court, as referenced in the bench warrant. Further, there are no
allegations

in

the

complaint

demonstrating

that

Defendants

acted

unreasonably in the manner of arresting Plaintiff. Therefore, because Carter
has not shown that Defendants violated theCconstitution in complying with the
court’s order to arrest her, the undersigned recommends the motion to dismiss
be granted.
3.

Forest

Gregory Allyn Forest is named as a defendant in his capacity as the
United States Marshal for the Western District of North Carolina. [ECF No. l].
Forest should also be dismissed because there is no Bivens claim for supervisory
liability, and Plaintiff has not alleged that Forest personally participated in her
arrest. The doctrine of supervisory liability is generally inapplicable to § 1983
and Bivens suits, such that an employer or supervisor is not liable for the acts

6 Although Plaintiff states her claim is brought pursuant to 42 U.S.C. § 1983,
that statute applies only to state actors. The undersigned construes this claim
as one brought pursuant to Bivens v. Six Unknown Named Agents of Federal
Bureau ofNarcotics, 403 U.S. 388, 397 (1971).

Case 3:19-cv-00104 Documental Filed 11/06/19 Page 8 of 12

of his employees, absent an official policy or custom that results in illegal action.
See Monell v. Department of Social Services, 436 U.S. 658, 694 (1978); Fisher
v. Washington Metro. Area Transit Authority, 690 F.2d 1133, 1142-43 (4th Cir.
1982). The Supreme Court explains that “[blecause vicarious liability is
inapplicable to Bivens and § 1983 suits, a plaintiff must plead that each
Government-official defendant, through the official’s own individual actions,
has violated the Constitution.” Iqbal, 556 U.S. at 676; see Slakan v. Porter, 131
F.2d 368, 372-74 (4th Cir. 1984) (finding officials may be held liable for the acts
of their subordinates, if the official is aware of a pervasive, unreasonable risk
of harm from a specified source and fails to take corrective action as a result of
deliberate indifference or tacit authorization).
Plaintiff has not alleged an official policy or custom resulting in the
alleged constitutional violations. She has also failed to allege Forest was
deliberately indifferent to a pervasive, unreasonable risk of harm.7 Therefore,
the undersigned recommends Plaintiffs claims be dismissed against Forest.
4.

ADA claim

To the extent Plaintiff attempts to bring an ADA claim, such claim should
be dismissed because the ADA does not apply to the United States. See 42
U.S.C. § 1211l(5)(B) (excepting the United States from definition of an

7 According to Defendants, Forest was not appointed as Unites States Marshal
until May 14, 2018, almost three months after Plaintiffs arrest.

Case 3:19-cv-00104 Document921 Filed 11/06/19 Page 9 of 12

employer”); 42 U.S.C. § 12131 (defining public entity as State or local
governments).
C.

Plaintiff s motion to amend

After Defendants’ motion to dismiss was fully briefed, Plaintiff filed a
“Petition to Amend to Enjoin Parties.” [ECF No. 20]. Plaintiff seeks to add the
Sheriffs Department of Mecklenburg County, the State of North Carolina, the
Town of Matthews, and Matthews Police Department (collectively “State
Defendants”) as defendants in this action. Id. at 20-1 at 1. Plaintiff argues the
proposed defendants conspired with the USMS in her arrest. She also alleges
Matthews Police Department knew her arrest was forthcoming, but did nothing
to prevent the arrest and imprisonment.
“[L]eave [to amend] shall be freely given when justice so requires.” Fed.
R. Civ. P. 15(a). “A motion to amend should be denied only when the
amendment would be prejudicial to the opposing party, there has been bad faith
on the part of the moving party, or the amendment would be futile.” HCMF
Corp. v. Allen, 238 F.3d 273, 276 (4th Cir. 2001) (internal quotation marks
omitted). If the district judge accepts the recommendation on Defendants’
motion to dismiss, Plaintiffs motion to amend should be denied as futile, as
Plaintiff has not shown any violations of her constitutional rights, precluding a
federal claim against State Defendants. To the extent Plaintiff believes she has
viable state law claims against State Defendants, she may pursue them in state

Case 3:19-cv-00104 Documental Filed 11/06/19 Page 10 of 12

court. If the district judge does not accept this recommendation, the motion to
amend may be remanded for future consideration.
III.

Conclusion
For the foregoing reasons, the undersigned recommends Defendants’

motion to dismiss [ECF No. 12] be granted and Plaintiffs motion to amend [ECF
No. 20] be denied as futile.
IT IS SO RECOMMENDED.

CCpLl
November 6, 2019
Columbia, South Carolina

Shiva V. Hodges
United States Magistrate Judge

The parties are directed to note the important information in the attached
“Notice of Right to File Objections to Report and Recommendation.”

Case 3:19-cv-00104 Documental Filed 11/06/19 Page 11 of 12

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to
this Report and Recommendation with the District Judge. Objections must
specifically identify the portions of the Report and Recommendation to which
objections are made and the basis for such objections. “[I]n the absence of a
timely filed objection, a district court need not conduct a de novo review, but
instead must ‘only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation.’” Diamond v. Colonial Life &
Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R. Civ. P. 72 advisory
committee’s note).
Specific written objections must be filed within fourteen (14) days of the
date of service of this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed.
R. Civ. P. 72(b); see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to
Federal Rule of Civil Procedure 5 may be accomplished by mailing objections
to:
Robin L. Blume, Clerk
United States District Court
901 Richland Street
Columbia, South Carolina 29201
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment of
the District Court based upon such Recommendation. 28 U.S.C. § 636(b)(1);
Thomas v. Arn, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841 (4th Cir.
1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

Case 3:19-cv-00104 Documental Filed 11/06/19 Page 12 of 12

Case: 18-5U5U

Document: 55-1

Hied: U5/12/2U2U

Page:!

No. 18-5050

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Jun 12, 2020
DEBORAH S. HUNT, Clerk

PHILLIP L. GILLIAM,

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellee,
v.
UNITED STATES OF AMERICA,
Respondent-Appellant.

ORDER

BEFORE: COLE, Chief Judge; CLAY and NALBANDIAN, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

United States District Court
Western District of North Carolina
Charlotte Division
Dianne Michele Carter,
Plaintiff(s),
vs.

Thomas Pellicane et al
Defendant(s).

)
)
)
)
)
)
)

JUDGMENT IN CASE
3:19-cv-00104

)

DECISION BY COURT. This action having come before the Court and a decision having been
rendered;
IT IS ORDERED AND ADJUDGED that Judgment is hereby entered in accordance with the
Court’s December 20, 2019 Order.
December 20, 2019

Frank G. Johns, Clerk
/
United States District Court

Case 3:19-cv-00104 Document 27 Filed 12/20/19 Page 1 of 1

if

USCA4 Appeal: 18-2368

Doc: 12

Filed: 04/08/2019

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2368
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

DIANNE MICHELE CARTER,
Defendant - Appellant.

AfpP^al,fr^m
Y11^ States District Court for the Western District of North Carolina,
a Charlotte. Frank D. Whitney, Chief District Judge. (3:16-cv-00673-FDW-DCK)
Submitted: April 4,2019

Decided: April 8,2019

Before NIEMEYER and HARRIS, Circuit Judges, and SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Carter’ APPeI,ant Pro Se. Francesca Ugolini, Tax Division UNITED
ATES DEPARTMENT OF JUSTICE, Washington, D.C., for Appellee.
Unpublished opinions are not binding precedent in this circuit.

A/
Case 3:16-cv-00673-FDW-DCK Document 46 Filed 04/08/19

Page 1 of 2

USCA4 Appeal: 18-2368

Doc: 12

Filed: 04/08/2019

Pg: 2 of 2

PER CURIAM:
Dianne Michele Carter appeals the district court’s order denying her postjudgment
motion in the underlying action filed by die Government seeking injunctive relief, We
have reviewed the record and find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. United States v. Carter, No. 3:16-cv-00673-FDWDCK (W.D.N.C. Nov. 14, 2018). We dispense with oral argument because the facts and
legal contentions are adequately presented in the materials before this court and argument
would not aid the decisional process.
AFFIRMED

2
Case 3:16-cv-00673-FDW-DCK Document 46 Filed 04/08/19 Page 2 of 2

A%

USCA4 Appeal: 18-2368

Doc: 13-2

Filed: 04/08/2019

Pg: l of 1

FILED: April 8,2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-2368
(3:16-cv-00673-FDW-DCK)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

DIANNE MICHELE CARTER
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR CLERK

Case 3:16-cv-00673-FDW-DCK Document 46-1 Filed 04/08/19 Page 1 of 1

/f3

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
DOCKET NO. 3:16-cv-00673-FDW-DCK
UNTIED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
vs.

DIANNE M. CARTER,
Defendant.

ORDER

THIS MATTER is before the Court on Defendant’s “Jurisdictional Challenge.” (Doc. No.
40). The Court construes Defendant’s filing as yet another motion for relief from this Court’s
previous orders. In her filing, Defendant argues that this Court did not have personal or subject
matter jurisdiction when the Court issued a show cause order, bench warrant, and subsequent order
to facilitate execution of that warrant. (Doc. No. 40, p. 1). Defendant’s motion is DENIED for the
reasons stated below.
The Court has subject matter jurisdiction in this matter. According to 28 U.S.C. § 1343,
“[ejxcept as otherwise provided by Act of Congress, the district courts shall have original
jurisdiction of all civil actions ... commenced by the United States ....” 28 U.S.C. § 1343. In
addition, this Court is explicitly authorized to issue injunctions regarding tax filings under the
Internal Revenue Code. See 26 U.S.C. § 7402(a) (“The district courts of the United States... shall
have such jurisdiction to make and issue in civil actions, writs and orders of injunction

and to

render such judgments and decrees as may be necessary or appropriate for the enforcement of the
1

Case 3:16-cv-00673-FDW-DCK Document 41 Filed 11/14/18 Page 1 of 3

A ppetdcjc *3

£1

internal revenue laws.”); see also 28 U.S.C. § 1340 (“The district courts shall have original
jurisdiction of any civil action arising under any Act of Congress providing for internal revenue .

Here, this case was filed by the United States seeking an injunction to keep Defendant from
filing fraudulent tax returns. Thus, the Court had subject matter jurisdiction to decide this case,
enjoin Defendant from preparing more tax returns, and order Defendant to turn over a list of names
of individuals that she had prepared tax returns for on October 2,2017. (Doc. No. 16). After two
months, Defendant showed no indications of compliance with the Court’s order and the Court
ordered Defendant to appear before this Court to explain her noncompliance. This Order to Show
Cause was mailed to Defendant on December 21, 2017. In addition, the United States attempted
multiple times to personally serve Defendant with the Show Cause Order. When Defendant failed
to show at this hearing, or make any other indications that she would comply, the Court issued a
bench warrant pursuant to its authority under 18 U.S.C. § 401. See 18 U.S.C. § 401 (“A court of
the United States shall have power to punish by fine or imprisonment, or both, at its discretion,
such contempt of its authority....”). These orders were all made under the Court’s valid exercise
of statutory and constitutional authority.
This Court also has personal jurisdiction over Defendant. Defendant was served with the
initial summons in this case and admits to being a domiciliary of North Carolina1 (Doc. No. 5, p.
3). See Fed. R. Civ. P. 4(k) (“Serving a summons or filing a waiver of service establishes personal
jurisdiction over a defendant... who is subject to the jurisdiction of a court of general jurisdiction
in the state where the district court is located . . ..”). Defendant argues that she never received

1 Defendant has also waived any objections to insufficient service of process by failing to raise the issue in her earlier
Motion to Dismiss. (See generally Doc. No. 7; see also Fed. R. Civ. P. 12(h) (stating that Rule 12(b)(2Hb)(5) defenses
are waived if the party fails to make it in a motion)).

2

tr

#1
ApptriA (X ^

Case 3:16-cv-00673-FDW*DCK Document 41 Filed 11/14/18 Page 2 of 3

personal service of this Court’s Show Cause Order, and thus, this Court lacked personal
jurisdiction over her to issue a bench warrant. However, the Defendant is not entitled to personal
service of every single document in litigation; rather, this Court’s personal jurisdiction over her
attached when she was served with the complaint and summons in this case. The Clerk of Court
mailed Defendant a copy of the Show Cause Order upon its entry on December 21. In the Show
Cause Order, the Court did give directions to serve the order in accordance with Rule 4(e), (Doc.
No. 25, p. 1-2), but these directions were merely additional attempts to compel Defendant’s
presence before this Court. The fact this order was not personally served on Defendant does not
excuse Defendant from her refusal to follow the Court’s orders for over two months and certainly
does not strip the Court of personal jurisdiction over her.
For these reasons, and for the reasons stated in this Court’s previous order dated September
14, 2018, Defendant’s current motion for relief is DENIED. This is now Defendant’s third
frivolous filing regarding these same issues. (Sge Doc. Nos. 37,39,40). Defendant is hereby nut
on notice that these filings are frivolous and in violation of Rnle llfb) of the Federal Rules
of Civil Procedure. Future frivolous filings will result in the Court ordering sanctions to deter
farther misconduct
IT IS SO ORDERED.
Signed: November 13,2018

Frank D. Whitney
Chief United States District Judge

3

Append if B>‘
Case 3;16-cv-00673-FDW-DCK Document 41 Filed 11/14/18 Page 3 of 3

£3

Appeal: 17-2364

Doc: 26

Filed: 02/16/2018

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-2364
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

DIANNE M. CARTER,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of North Carolina,
at Charlotte. Frank D. Whitney, Chief District Judge. (3:16-cv-00673-FDW-DCK)
Submitted: February 15,2018

Decided: February 16,2018

Before WILKINSON, FLOYD, and THACKER, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Dianne M. Carter, Appellant Pro Se. Marion E.M. Erickson, Joan Iris Oppenheimer
Francesca Ugolini, UNITED STATES DEPARTMENT OF JUSTICE, Washington’
D.C., for Appellee.
’
Unpublished opinions are not binding precedent in this circuit.

hyptoAw (Li
Case 3:16-cv-00673-FDW-DCK Document 31 Filed 02/20/18 Page 1 of 2

c\

Appeal: 17-2364

Doc: 26

Filed: 02/16/2018

Pg: 2 of 2

PER CURIAM:
Dianne M. Carter appeals the district court’s order granting summary judgment to
the United States on its action seeking to enjoin Carter from preparing federal income tax
forms. We have reviewed the record and find no reversible error. Accordingly, although
we grant leave to proceed in forma pauperis, we affirm for the reasons stated by the
district court United States v. Carter, No. 3:16-cv-00673-FDW-DCK (W.D.N.C. Oct. 2,
2017). We deny Carter’s motions for stay pending appeal and for other relief, and we
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

2
Case 3:16-cv-00673-FDW-DCK Document 31 Filed 02/20/18 Page 2 of 2

cz

Appeal: 17-2364

Doc: 27-2

Filed: 02/16/2018

Pg: 1 of 1

FILED: February 16,2018
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-2364
(3:16-cv-00673-FDW-DCK)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DIANNE M. CARTER
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court’s mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

Case 3:16-cv-00673-FDW-DCK Document 31-1 Filed 02/20/18

AfpendwC.
di
Page 1 of 1

Appeal: 17-2364

Doc: 28

Filed: 04/10/2018

Pg: 1 of 1

FILED: April 10,2018
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-2364
(3:16-cv-00673-FDW-DCK)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

DIANNE M. CARTER
Defendant - Appellant

MANDATE
The judgment of this court, entered 2/19/2018, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
/s/Patricia S. Connor. Clerk

AfpwAfrOCase 3:16-cv-00673-FDW-DCK Document 35 Filed 04/10/18 Page 1 of 1

Of

UNITED STATES DISTRICT COURT
WESTERN DTSTRTCT OF NORTH CAROLINA
CHARLOTTE DIVISION
DOCKET NO. 3:16-CV-00673-FDW-DCK
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
DIANNE M. CARTER,
Individually and Doing Business As
Carter Sensible Tax Service
Defendant.

ORDER

THIS MATTER is before the Court on Plaintiffs Motion for Order to Show Cause (Doc.
No. 24). Plaintiff s Motion alleges that Defendant has neither provided counsel for the United
States a list of the persons for whom she prepared federal income tax returns or refund claims, nor
shown that she contacted individuals for whom she prepared federal tax returns to inform them of
this Court’s injunction as was required by this Court’s October 2, 2017, Order of Permanent
Injunction (Doc. No. 16). Accordingly, Plaintiffs Motion, for the reasons stated therein, is
GRANTED.
IT IS THEREFORE ORDERED and the parties shall TAKE NOTICE that Defendant shall
appear before this Court on Friday, January 5,2018, at 2:00 p.m., in Courtroom #1-1 at the
Charles R. Jonas Federal Building, 401 West Trade Street, Charlotte, North Carolina, 28202,
whereby Defendant shall show cause why it has not complied with the terms of this Court’s Order
(Doc. No. 16) and why Defendant should not be held in contempt for non-compliance.
IT IS FURTHER ORDERED that:
1.

A copy of this Order shall be served in accordance with Rule 4(e) of the Federal
1

Case 3:16-cv~00673-FDW-DCK Document 25 Filed 12/21/17 Page 1 of 2

AfpendixT))
Pf

Rules of Civil Procedure within fourteen (14) days of the date that this Order is served upon
counsel for the United States or as soon thereafter as possible.
2.

Proof of service done pursuant to paragraph 1, above, shaft be filed with the Clerk

as soon as practicable
3.

Because the United States has made a prima facie showing that Defendant has

violated the Court’s Order, the Defendant has the burden of showing that her noncompliance
justified or excused.
4.

If Defendant has any defense to presort or opposition to the United States’

motion, such defense or opposition shaft be bade in writing and filed with the Clerk and copies
served on counsel for the United States at least fourteen (14) days prior to the date set for the show
cause hearing. The United States may file a reply memorandum to any opposition at least five (5)
days prior to the date set for the show cause hearing
5.

At the show cause hearing, only those issues brought into controversy by the

responsive pleadings and factual allegations supported by affidavit or declaration will be
considered. Any uncontested allegation will be considered admitted.
Defendant is hereby notified that a failure to comply with this Order may subject her to
sanctions for contempt of court.
IT IS FURTHER ORDERED that Defendant’s Motion to Stay the Court’s Order pending
appeal (Doc. No. 19) is DENIED AS MOOT.
IT IS SO ORDERED.
Signed: December 21,2017

Frank D. Whitney
y'
Chief United States District Judge

App&nJtix
Case 3:16-cv-00673-FDW-DCK Document 25 Filed 12/21/17

Page 2 of 2

«

-A**' *

I

• i

(r

•v--;

AO 442 (Rev. 11/11) Arrest Wtmstl
M„

•Y

‘ Y

■

:

.1

United States District Court2fll8 Mi
for tile

Western District of North Carolina
United Slates ofAmerica
v.

>•
Defendant

0 Pn 3:59
i'liv/A-hSLi.W.

FILED
CHARLOTTE, NC

)
)
)
)
)
)

DIANNE M. CARTER

i

Case No. 3:10CV673-FDW

MAR -1 2018 ;
US District Court
Western District
of NC
* ..

BENCH WARRANT
To:

Any authorized law enforcement officer

-

•:./

■;'

'

YOU ARE COMMANDED to arrest and bring before a United States District Court judge without unnecessary
delay (name ofperson to be arreatEQMWE M. CARTER
9 . ■

who is accused of an offense or violation based on the following document filed with the court:
□ Indictment

□ Superseding Indictment
□ Information □ Superseding Information O Complaint
□ Probation Violation Petition
□ Supervised Release Violation Petition
□Violation Notice Sif Order of tire Court
;

This offense is briefly described as follows:
Contempt of Court for failure to comply with the Court’s October 2,2017 Order.

i.

I

!

i

■!

:

li
• li

Date:

01/05/2018

- City and state:

7

Charlotte. NC

AM

Chief Judge Frank D. Whitney
i

: l!
I !

!

Return

I

Date:

i

Issuing officer's signature

Printed name and title

This warrant was received on (date)
at (city and state) CHrtt/l .&rrer/xjs*

I

sir-—”'

1 *

i

!

, and the person was arrested on (date)

■40*(^Arresting officer‘s itgnature

Printed name and title f

a

1

~

i.
I
Case3:16~cv-00673-FDW-DCK Document34 Filed03/01/18 Page 1 of 1■

jr~

!

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
DOCKET NO. 3:16-cv-00673-FD W-DCK
UNITED STATES OF AMERICA,
)
Plaintiff,
vs.

)
)
)
)
)
)

DIANNE M. CARTER,
Individually and Doing Business as Carter )
Sensible Tax Service
)
Defendant.

ORDER

)
)
.)

THIS MATTER is before the Court on Plaintiffs Motion for Order Authorizing all
Necessary Actions to Execute Bench Warrant against Defendant (Doc. No. 29). Plaintiff alleges
that the United States Marshals Service has been unable to procure Defendant’s voluntary
surrender pursuant to the bench warrant issued in this case for Defendant’s failure to attend the
Show Came hearing held on January 5,2018. For the reasons stated in the United States’ motion
(Doc. No. 29), the motion is GRANTED.
It is further ORDERED that, pursuant to the Bench Warrant (Doc. No. 28) issued in this
action on Januaty 5, 2018, the United States Marehals Service is authorized and directed to take
all reasonable actions, including but not limited to the use ofreasonable force, necessary to execute
the bench warrant and procure Defendant’s attendance before the C ourt.
IT IS SO ORDERED.
Signed: January 24,2018

Frank D. Whitney
/
Chief United States District Judge
Case 3:16-cv-00673-FDW-DCK Document 30 Filed 01/25/18 Page 1 of 1

F

Federal Rules of Civil Procedure
Rule 4. Summons
(e) Serving an Individual Within a Judicial District of the United States,

Unless federal law

provides otherwise, an individual...
- may be served in a judicial district of the United States by:
(1) following state law for serving a summons in an action brought in courts of general
jurisdiction in the state where the district court is located or where service

is made; or

(2) doing any of the following:
(A) delivering a copy of the summons and of the complaint to the individual personally;
(B) leaving a copy of each at the individual's dwelling or usual place of abode with
someone of suitable age and discretion who resides there; or
(C) delivering a copy of each to an agent authorized ... to receive service of process.
(0 proving Service.
(l) Affidavit Required. Unless service is waived, proof of service must be made to the court.
Except for service by a United States marshal .. proof must be by the server's affidavit.
(m) Time Limit for Service. If a defendant is not served within 90 days after the complaint is
filed, the court-on motion or on its own after notice to the plaintiff-must dismiss the action
without prejudice against that defendant or order that service be made within a specified time.
But if the plaintiff shows good cause for the failure, the court must extend the time for service
for an appropriate period.

Appendix <2r

Rule 5. Serving and Filing Pleadings and Other Papers
(a) Service When Required.
(1) In General. Unless these rules provide otherwise, each of the following papers must be
served on every party:
(A) an order stating that service is required;
(E) a written notice, appearance, demand, or offer of judgment, or any similar paper.
(2) If a Party Fails to Appear. No service is required on a party who is in default for failing
to appear. But a pleading that asserts a new claim for relief against such a party must be
served on that party under Rule 4.

Appendix (SJL

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
UNITED STATES OF AMERICA,

)

)

Plaintiff,
v.
DIANNE M CARTER
Individually And Doing Business As
Carter Sensible Tax Service
Defendant.

CaseNo. 3:16-CV-00673-FDW-DCK

)
)
)
)
)
)
)
)
)

MOTION FOR ORDER AUTHORIZING
ALL NECESSARY ACTIONS TO EXECUTE
BENCH WARRANT AGAINST DEFENDANT
The United States of America moves the Court pursuant to 26 U.S.C. § 7402 and Rule
70(e) of the Federal Rules of Civil Procedure for an Order authorizing the United States
/ Marshals Service ( USMS ) take any all reasonable and necessary measures necessary to
execute the arrest of Dianne M. Carter pursuant to the bench warrant issued in the above' referenced action on January 5,2018, including but not limited to entering Defendant’s home to
effect her arrest (Diet No. 28).
As set forth more fully in the attached memorandum, good cause exists for the order
- ^because. (1) the United States was unable to effect service of the order to show cause entered in
this case on January 5, 2018, due to Plaintiff*s evasion; and (2) after Defendant did not attend the
Show Cause Hearing, the U.S. Marshals charged with effecting Defendant’s arrest were unable
to secure her surrender voluntarily. Accordingly, the USMS should be informed of their
authority to take reasonable steps to executed the Court’s arrest warrant, including the authority
to enter Ms. Carter’s home located at 1201 Gifford Drive, Matthews, NC 28105.

Case 3:16-cv-00673-FDW-DCK Document 29 Filed 01/17/18 Page 1 of 3

H

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION

UNITED STATES OF AMERICA,

)

)

Plaintiff

Case No. 3:16-cv-00673

)
)
)
)
)

v.

DIANNE M. CARTER, Individually And
Doing Business As Carter Sensible Tax Service,)
Defendant
DIANNE M. CARTER
Counterclaim Plaintiff,
v.

)
)
)
)
)
)
)
)
)

UNTIED STATES OF AMERICA, LORETTA )
A. LYNCH; RYAN O. MCMONAGLE; JILL )
WESTMORELAND ROSE; CAROLINE D. )
CIRAOLO; WILLIAM J. WILKINS; JOHN )
KOSKINEN
)
Counterclaim Defendant.

' )
)

UNITED STATES’ BRIEF IN SUPPORT OF ITS
MOTION TO DISMISS COUNTERCLAIM
Introduction and Summary of Argument
The United States of America brought this action under section s7402(a) and 7407 of the
Internal Revenue Code (26 U.S.C.) to enjoin the defendant, Dianne M. Carter, fiom preparing or
otherwise assisting in preparing federal tax returns. The action alleges that Carter prepares
federal tax returns that overstate her clients’ tax withholdings in order to claim massive refunds
to which those clients are not entitled. The United States filed the complaint on September 16,

Case 3:16-cv-00673-FDW-DCK Document 6-1 Filed 02701/17

/\rppM<d> ft
I
Page 1 of 9

18 U.S.C. § 241- Conspiracy against rights: If two or more persons conspire to injure, oppress,
threaten, or intimidate any person in any State,... in the free exercise or enjoyment of any right
or privilege secured to him by the Constitution or laws of the United States, ... or If two or more
persons go m disguise on the

premises of another, with intent to prevent or hinder his free

exercise or enjoyment of any right or privilege so secured — They shall be fined under this title
or imprisoned not more than ten years, or both; and if ... such acts include kidnapping ... they
shall be fined under this title or imprisoned for any term of years or for life, or both, or may be
sentenced to death.

18 U.S.C. § 242 - Deprivation of rights under color of law: Whoever, under color of any law,
statute, ordinance, regulation, or custom, willfully subjects any person in any State ... to the
deprivation of any rights, privileges, or immunities secured or protected by the Constitution or
laws of the United States, or to different punishments, pains, or penalties, ... by reason of his
color, or race, than are prescribed for the punishment of citizens, shall be fined under this title or
imprisoned not more than one year, or both; and if bodily injury results from the acts committed
m violation of this section or if such acts include the use, attempted use, or threatened use of a
dangerous weapon,

shall be fined under this title or imprisoned not more than ten years, or

both; and if such acts include kidnapping . shall be fined under this title, or imprisoned for any
term of years or for life, or both, or may be sentenced to death.

Appendix \T

/

1

4

3

against Ms. Carter from acting as a tax return preparer.

That

p-2 II injunction was entered on October 2nd, 2017. Ms. Carter had
3
since appealed that judgment and requested a stay of its
^ II en^orcemen^' which was denied. And since that date her appeal
5 II has also been denied.

So we have a final judgment in the case
-'6 II as well as a mandate back to the trial court.
8
9

A

After 30 days had passed from the entry of the
injunction, the United States had not received what it was

10

entitled to receive from Ms. Carter pursuant to the
injunction, and this is paragraph 3, page 9 of the order for a

11

permanent injunction, which requiring Ms. Carter to, quote,

12

contact within 30 days after the entry of this order and
judgment of permanent injunction by United States mail and an
email address is known by email all persons, to the extent

13
14
15
16
17
18
19

that the identities and locations of such persons are within
the possession, custody or control of Carter for whom she
prepared or assisted in preparing federal tax returns to
inform them of the permanent injunction against her.

20

Paragraph 4 states that she was required to, quote,
provide to counsel for the united States within 30 days after

21

the entry of this order and judgment of permanent injunction a

W22
23

complete list of the persons to the extent such a list is
within possession, custody or control of Carter for whom

24

Carter has prepared or assisted in preparing any federal

25

income tax return, amended return, or refund claim at any time

AfpeiUit
Case 3:16-cv-00673-FDW~DCK Document 36 Filed 04/24/18 Page 3 of 61

■Kl

"\

4

2

from January 1st, 2010, through the present, with such list to
include for each person the name, address, phone number, email

3

address, social security number, employer identification

4

number. or individual tax identification number,
and the tax
periods for which each such return, amended return or refund

br>5

6

claim relates.

7
8

She was then required pursuant to paragraph 5 to
file with the Court within 60 days as the entry of the order

9

permanent injunction a, quote, sworn certificate of compliance

10

signed under penalty of perjury stating that she has complied

11

with the foregoing directives.

12

MS. Carter did not file the required certification

13

within the 60 days period set forth in paragraph 5, which is

14

long since expired.

15

United States within 30 days. or at all, a list of her
clients. And we have no indication as to whether she has

16
17
18
19

And she has not provided to the

complied with paragraph 3, which requires her to directly
reach out to the clients herself and inform th^m of the entry

20

of the injunctions against her barring her from acting as a
tax return preparer.

21

Without this information, you know, the

22

United States has a difficult time being able to judge whether

23
24

Ms. Carter is complying with the other requirements of this
injunction; namely, whether she is acting as a tax return

25

preparer or complying with the injunction by not preparing tax

Case 3:16-cv-00673-FDW-DCK Document 36 Filed 04/24/18 Page 4 of 61

•Ka

11
ill do.

I will notify them if I need to - l don't have many

2 II phone numbers.
3 II can
contact
5
6

It's on my phone and my phone died, but I

for the ones that I have, I can send letters.

I can

the IRS certainly knows who I prepared taxes for.
THE COURT:

Wsll, no, that's not necessarily true,

They -- they -- it's. you know, there's hundreds of millions,

7 || maybe billions of pieces of paper the IRS has to deal with,
8
__9
10
11
12
13
14

and it's not so easy for than to just go in and say, okay,
here's a tax preparer and pull all those documents.
THE DEFENDANT:

Okay.

Okay.

I understand what

you're saying.
I don't really prepare that many tax returns,

It'S

not like I'm doing thousands a year.
THE COURT:

No, but that's why it troubles the

15

Court, why if you're only doing it -- a few each year, why you

16

don't know your clients.

17

THE DEFENDANT:

I know some of them.

They don't

18

come back every year.

19

computer, I could get some names for you.

20

I won't do taxes for the federal government anymore. Whatever
you want me to do, I will do. Whatever you want.
Whatever
you will allow me to do, I will do. I'm not trying to run.
I
don't know why they couldn't find me.

21
22
23
24
25

THE COURT:

if I can -- if I had my records, my

Well, then
around their passports.

I can promise that

most people don't carry

Case 3:16-cv-00673-FDW-DCK Document 36 Filed 04/24/18 Page 11 of 61

AjPpeflJliy
K4

15
1 [| happen.
2

THE DEFENDANT:

3

THE COURT:

Okay.

4

But I'm not going to release you
THE DEFENDANT: That's fine.

5

THE COURT:

-- because the Court does not believe
6 II you're trustworthy at all. Particularly when you're found
7 || with cash and a passport,
That just signals to the Court that
8
you were planning to flee.
9
10

THE DEFENDANT:
since I got the passport.

11

THE COURT:

12

wanting to flee for some time.

13

15
16
17
18
19

Well, then it sounds like you've been

THE DEFENDANT:

f~~14

:

That passport has been in my bag

THE COURT:

I don't have anywhere to go.

Well, you — you -- the marshals have

had a hard time tracking you down, and it' s ray understanding
they even saw you, but they didn't want to break into your
home because we didn't -- we, the Court, did not want the
marshal service to incur any liability from breaking into

your

home.

20

THE DEFENDANT:

21

THE COURT:

Yes, sir.

But you -- you would not come to the

22

door when the marshal service was knocking on the door, yet

23

they could see your shadow or silhouette.

24
25

THE DEFENDANT:
wasn't there.

No, sir.

When they were there, I

When they came last night, I was there and I

Case 3:16-cv-00673~FDW-DCK Document 36 Filed 04/24/18 Page 15 of 61

Appe#4 ()C

41

1 || Fourth Circuit didn't order it stayed either.
2
THE DEFENDANT: Right, they didn't.
3
THE COURT: So you violated a court order.
4
THE DEFENDANT: And I am 5
6
7

THE COURT:

And you still are violating a court

order.
THE DEFENDANT.-

And I am sorry, because I thought

8

the appeal would overrule the order,

9

of Appeals.

10

THE COURT:

11

THE DEFENDANT:

12

THE COURT:

13

THE DEFENDANT:

14

THE COURT:

No, no.

The appeal to the Court

Well, you were wrong on that.

I was wrong.

Right.
And I understand that.

But you were informed by show cause

15

orders and other things that you were not in compliance,

16

quite honestly, I just don't believe you.

17

THE DEFENDANT:

18

THE COURT:

19

THE DEFENDANT:

20

IT21

So,

That's true.

So -I will do it.

I will do what I'm

supposed to do.
THE COURT:

\ 22

Well, I understand from the marshal
service that you're sitting there saying, i don't know what

j 23

records I have or anything like that, that there are records

24

all over your house and records in your bathroom and just -and you’re saying you don't have any records, but apparently

U25

Case 3:16-cv-00673-FDW-DCK Document 36 Filed 04/24/18 Page 41 of 61

Kb

—r

42

eyewitnesses saw lots and lots of documents in your house.

Se&rc$)

2

THE DEFENDANT:

Yeah, but those are not tax returns.

3 II What 1 had is -- I told you, W-2s.
4

And what you're asking

for, they weren't asking for records.

They were asking for

5 11 the names, the socials -6

THE COURT:

7

THE DEFENDANT:

8

THE COURT:

Right.

And they're all there.

9 || And they're all there.
10

— address.

You have them.

That's right.

You were saying -- in

11

the earlier hearing, you were saying, well, I don't know if i
have them. I do have a zip drive, but I don't know if I have

12

all this other stuff.

13

these W-2s.

14

Now you’re telling me you have all

THE DEFENDANT:

No.

I’m saying I didn't have them

15

from 2011.

16

asking, I said I have it on the computer and I can get it for
than.

17
18
19

That's what I was saying.

THE COURT:

All right.

But what they're

Let me hear from the

Government.

20

MR. SULLIVAN:

21

MR. McMONAGLE:

Hear from Mr. McMonagle if you may.
Well, Your Honor, we tried to get in

22

touch with someone with the IRS who can accompany Ms. Carter

23

to her home to obtain all this information that she says she
has. I've not been able to secure anyone either on the

24
25

criminal side or the civil side that can do that today.

Case 3:16-cv-00673-FDW-DCK Document 36 Filed 04/24/18 Page 42 of 61

59

1

is entitled Motion for Order to Show Cause Why the Defendant

2

Should Not be Held in Contempt.

3

Another order from the Court that is dated

4

December 21st, 2017.

5

January 5th, 2018.

6

January 17, 2018.

7

Authorizing All Necessary Actions to Execute Bench Warrant

8

Against Defendant.

9

i
i

A motion entitled Motion for Order

An order of the Court dated January l -- excuse me,
dated January 25th, 2018.

11

Fourth Circuit that was decided on February 16th of 2018.

12

going to also read that into the record here, the appellate

13

decision.

14

i

A motion from the United States dated

10
<

!

A bench warrant issued by the Court on

It reads:

A copy of the appeal from the
I'm

"Dianne M. Carter appeals the District

15

Court's order granting summary judgment to the United States

16

on its action seeking to enjoin Carter from preparing federal

17

income tax forms, review the record and find no reversible

18

error.

19

forma pauperis, we affirm for the reasons stated by the

20

District Court."

Accordingly, although we grant leave to proceed in

21

And then it cites this Court case number.

22

And the Fourth Circuit continues to say:

23

Carter's motion for stay pending appeal and for other relief,

"We deny

and we dispense its oral argument because the facts and legal
5

contentions are adequate and presented in material before

Case 3:16-cv-00673-FDW-DCK Document 36 Filed 04/24/18 Page 59 of 61

kio

60

2

/

3
.1
i

4
5
6
7

this Court, and argument should not aid in the decisional
process.*
And then final word it says "affirmed," meaning that
the District Court's opinion was affirmed.
So I'll ask the Clerk of Court to hand these
documents up to Ms. Carter.
Ms. Carter, I think we'll have this all resolved by

8

tomorrow afternoon, but I can't guarantee that.

9

I’m telling the Government to move quickly because I do

But we are

10

understand your detention is not unlimited.

11

consider your constitutional rights at the same time I'm

12

considering the legitimate concerns of the United States in

13

making sure you comply with the Court order that -- which

14

would result in the Government getting the names and addresses

15

of your clients.

I have to

16

All right.

17

MR. SULLIVAN:

18

MR. McMONAGLE:

19

THE COURT:

20

THE DEFENDANT:

21

THE COURT:

22

(The proceedings were recessed at 3:30 p.tn.)

23

Anything else. Counsel?
Not from me. Your Honor.
No, Your Honor.

Ms. Carter, any questions?

No, sir.

Thank you.
★

*

Thank you.
We'll be in recess.

*

24
25

Case 3:16-cv-00673-FDW-DCK Document 36 Filed 04/24/18 Page 60 of 61

kit

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
UNITED STATES OF AMERICA,
Plaintiff
v.
DIANNE M. CARTER
Individually And Doing Business As
Carter Sensible Tax Service
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

Case No. 3:16-CV-00673-FDW-DCK

DECLARATION OF BARBARA YATES
I, Barbara Yates, pursuant to 28 U.S.C. § 1746, declare as follows:
1.

I am a Deputy United States Marshal in the United States Marshal’s Office for the

Western District of North Carolina. As part of my duties as a Deputy United States Marshal, I
execute bench warrants issued by the United States District Court for the Western District of
North Carolina. I have persona! knowledge of the facts asserted in this declaration and if called
as a witness could testify competently thereto.
2.

On January 9,2018,1 was assigned to the above-referenced case to execute a

bench warrant for the arrest of Dianne M. Carter for violating an order of the court.
3.

At approximately 10:30 a.m. on January 9,2018,1 interviewed Defendant’s

neighbor for the purpose of ascertaining Defendant’s whereabouts and schedule.
4.

At approximately 11:0G a.m.., after speaking with Defendant’s neighbor, I

surveilled Defendant’s home, located at 1201 Gifford Drive, Matthews, North Carolina, 28105. 1
noted at that time that lights were on in the Defendant’s home.

Case 3:16-cv-00673-FDW-DCK Document 29-2 Filed 01/17/18 Page 1 of 2

5.

At 3:40 pun., I contacted members of the Violent Offender Tax Force from the

United States Marshals Office for the Western District of North Carolina, and local police
officers from the Matthews, North Carolina Police Department, to assist in executing the bench
warrant for Ms. Carter’s arrest.
6.

At 5:30 p.m., a team of six United States Marshals, and three Matthews, North

Carolina police officers arrived at Defendant’s address.
7.

Soon after the arrest teams arrived, the lights inside the house were turned off. I

then viewed the garage and noted that two cars belonging to Ms. Carter were parked inside.
8.

I, the six other United States Marshals, and the three Matthews, North Carolina

police officers who were present, knocked on the front door of 1201 Gifford Drive for
approximately forty-five minutes.
9.

At no time did Defendant appear at the door, or otherwise communicate with me,

the other United States Marshals, or the local police officers.
10.

During that forty-five minute period, however, the lights inside of the home

turned on and off, indicating to me that Carter was present
I declare under penalty of perjury that the foregoing is true and correct and that this
declaration was executed on January _Q_, 2018 at Charlotte, North Carolina.

V- da*. litsiVv
BARBARA YATES
Deputy United States Marshal

2
Case 3.T6-cv-00673-FDW-DCK Document 29-2

Filed 01/17/18 Page 2 of 2

Appendix

Universal Declaration of Human Rights
Article 01. All human beings are bom free and equal in dignity and rights. They are
endowed with reason and conscience and should act towards one another in a spirit of
brotherhood.
Article 02. Everyone is entitled to all the rights and freedoms set forth in this Declaration
Article 03. Everyone has the right to life, liberty and security of person.
Article 04. No one shall be held in slavery or servitude; slavery and the slave trade 04
shall be prohibited in all their forms.
Article 05. No one shall be subjected to torture or to cruel, inhuman or degrading
treatment or punishment.
Article 07. All are equal before the law and are entitled without any discrimination to
equal protection of the law. All are entitled to equal protection against any discrimination in
violation of this Declaration and against any incitement to such discrimination.
Article 08. Everyone has the right to an effective remedy by the competent national
tribunals for acts violating the fundamental rights granted him by the constitution or by law.
Article 09. No one shall be subjected to arbitrary arrest, detention or exile.
Article 10. Everyone is entitled in full equality to a fair and public hearing by an
independent and impartial tribunal, in the determination of his rights and obligations and of any
criminal charge against him.
Article 11. (1) Everyone charged with a penal offence has the right to be presumed
innocent until proved guilty according to law in a public trial at which he has had all the
guarantees necessary for his defence. (2) No one shall be held guilty of any penal offence on

Appendix A4

account of any act or omission which did not constitute a penal offence, under national or
international law, at the time when it was committed. Nor shall a heavier penalty be imposed
than the one that was applicable at the time the penal offence was committed.
Article 12. No one shall be subjected to arbitrary interference with his privacy, family,
home or correspondence, nor to attacks upon his honour and reputation. Everyone has the right
to the protection of the law against such interference or attacks.
Article 13. (1) Everyone has the right to freedom of movement and residence within the
borders of each State. (2) Everyone has the right to leave any country, including his own, and to
return to his country.
Article 17. (1) Everyone has the right to own property alone as well as in association
with others. (2) No one shall be arbitrarily deprived of his property.
Article 30. Nothing in this Declaration may be interpreted as implying for any State,
group or person any right to engage in any activity or to perform any act aimed at the destruction
of any of the rights and freedoms set forth herein.

Appendix M 2-

